                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: A-09110082                                                                   Page 1 of 1



         We reviewed an allegation of plagiarism I in an NSF awarded proposal 2 submitted by the subject3
         as the sole PI. Our review showed that the subject's awarded proposal was in support of a
         workshop strongly encouraged by NSF. 4 The subject used s"ome of his text from his awarded
         NSF proposal following the completion of the workshop to support and document the results of
         the workshop. There is no substance to the allegation of plagiarism. This case is closed and no
         further action will be taken.




NSF OlG Fonn 2 (lll02)
